<html>
<title> - [H.A.S.C. No. 114-51] USAF BOMBER FORCE STRUCTURE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




                                     
 
                         [H.A.S.C. No. 114-51]

                     USAF BOMBER FORCE STRUCTURE--
                        CURRENT REQUIREMENTS AND
                             FUTURE VISION

                               __________

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 29, 2015

                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                            _________ 
                                 
              U.S. GOVERNMENT PUBLISHING OFFICE
  97-193 PDF            WASHINGTON : 2016       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001

                                     
  


             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  J. RANDY FORBES, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
BRADLEY BYRNE, Alabama               JAMES R. LANGEVIN, Rhode Island
ROBERT J. WITTMAN, Virginia          RICK LARSEN, Washington
DUNCAN HUNTER, California, Vice      MADELEINE Z. BORDALLO, Guam
    Chair                            HENRY C. ``HANK'' JOHNSON, Jr., 
VICKY HARTZLER, Missouri                 Georgia
PAUL COOK, California                SCOTT H. PETERS, California
JIM BRIDENSTINE, Oklahoma            TULSI GABBARD, Hawaii
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RYAN K. ZINKE, Montana               SETH MOULTON, Massachusetts
STEPHEN KNIGHT, California
STEVE RUSSELL, Oklahoma
                Bruce Johnson, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                        Katherine Rember, Clerk
                        
                        
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1

                               WITNESSES

Bunch, Lt Gen Arnold W., USAF, Military Deputy, Office of the 
  Assistant Secretary of the Air Force for Acquisition, U.S. Air 
  Force..........................................................     3
Rand, Gen Robin, USAF, Commander, Air Force Global Strike Command     2
Walden, Randall G., Director, Air Force Rapid Capabilities 
  Office, Office of the Administrative Assistant to the Secretary 
  of the Air Force...............................................     4

                                APPENDIX

Prepared Statements:

    Bunch, Lt Gen Arnold W., joint with Randall G. Walden........    36
    Courtney, Hon. Joe, a Representative from Connecticut, 
      Ranking Member, Subcommittee on Seapower and Projection 
      Forces.....................................................    25
    Forbes, Hon. J. Randy........................................    23
    Rand, Gen Robin..............................................    27

Documents Submitted for the Record:

    Two charts titled Air Force Availability, Bombers............    51

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................    55
    Mr. Forbes...................................................    55
    

  USAF BOMBER FORCE STRUCTURE--CURRENT REQUIREMENTS AND FUTURE VISION

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                       Washington, DC, Tuesday, September 29, 2015.
    The subcommittee met, pursuant to call, at 3:30 p.m., in 
room 2118, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Forbes. Good afternoon. And today the subcommittee is 
going to meet to discuss the future of Air Force long-range 
strike--current requirements and future vision. We thank you 
all for being here.
    We know that we are going to have some votes that are going 
to come up relatively soon, so Mr. Courtney and I have both 
agreed that we are going to submit our opening statements for 
the record to save that amount of time and go right to our 
testimony from our witnesses.
    So let me thank you, all three, for being here and all of 
your staff for the hard work that they continually do.
    Before we start, I need to just get a motion on the record. 
I ask unanimous consent that non-subcommittee members be 
allowed to participate in today's hearing after all 
subcommittee members have had an opportunity to ask questions. 
Is there an objection?
    Seeing none, the members will be recognized at the 
appropriate time for 5 minutes, the non-subcommittee members.
    And, with that, we are delighted to have with us General 
Robin Rand, the Commander of the Air Force Global Strike 
Command; Lieutenant General Arnold W. Bunch, Jr., the Military 
Deputy to the Assistant Secretary of the Air Force for 
Acquisition; and Mr. Randall G. Walden, Director of the Air 
Force Rapid Capabilities Office.
    So, gentlemen, thank you all for being here.
    Mr. Courtney, do you have any comments you would like to 
make?
    Mr. Courtney says no.
    So, with that, General, are you going to start off, or how 
are we going to proceed?
    General Rand. Sir, that is great. I would be happy to.
    Mr. Forbes. Okay. Then we thank you, and the floor is 
yours.
    [The prepared statements of Mr. Forbes and Mr. Courtney can 
be found in the Appendix beginning on page 23.]

STATEMENT OF GEN ROBIN RAND, USAF, COMMANDER, AIR FORCE GLOBAL 
                         STRIKE COMMAND

    General Rand. Thank you.
    Chairman Forbes, Ranking Member Courtney, distinguished 
members of the committee, thank you very much for allowing me 
to appear before you to represent the men and women of Air 
Force Global Strike Command.
    First, let me say that our airmen of the Air Force Global 
Strike Command are doing a fantastic job providing effective 
nuclear and conventional global strike forces for our combatant 
commanders and our Nation. A key to our success will be our 
ability to modernize, sustain, and recapitalize our bomber 
forces.
    In addition to our ICBM [intercontinental ballistic 
missile] forces, Air Force Global Strike is currently 
responsible for the B-52 and the B-2 bombers. As you know, the 
B-52 serves as the Nation's most versatile and diverse weapons 
system in the command by providing precise and timely long-
range strike capabilities. Meanwhile, the B-2 can penetrate an 
adversary's most advanced integrated air defense system to 
strike heavily defended targets.
    And I am happy to report that in 2 days Air Force Global 
Strike Command will assume responsibility for the B-1 Lancer 
mission and the airmen who operate, maintain, and support this 
proven warhorse. The B-1s have been actively engaged in the 
Southwest Asia theater, flying over 14,000 combat missions 
since September 11, 2001. We look forward to incorporating this 
important platform in the Air Force Global Strike Command so we 
can learn from their recent experience and share best practices 
across our forces.
    However, modernization and sustainment can take us only so 
far, so we look forward. And with the LRS-B [Long-Range Strike 
Bomber], that future looks promising. The LRS-B will extend 
American air dominance against next-generation capabilities in 
an anti-access environment by its long range, significant 
payload, and survivability.
    Mr. Chairman, I want to thank you again for the opportunity 
to appear before the committee to discuss Air Force Global 
Strike Command and our bomber force structure. And I look 
forward to your questions.
    And, sir, with your permission, I would like to have my 
written testimony entered into the record.
    [The prepared statement of General Rand can be found in the 
Appendix on page 27.]
    Mr. Forbes. Without objection, all of the written testimony 
of our witnesses will be made part of the record today.
    So thank you, General, and----
    General Rand. Yes, sir. Thank you.
    Mr. Forbes [continuing]. Thank you for your service to our 
country.
    General Bunch.

  STATEMENT OF LT GEN ARNOLD W. BUNCH, USAF, MILITARY DEPUTY, 
    OFFICE OF THE ASSISTANT SECRETARY OF THE AIR FORCE FOR 
                  ACQUISITION, U.S. AIR FORCE

    General Bunch. Mr. Chairman, Ranking Member Courtney, and 
the rest of the distinguished ladies and gentlemen of the 
committee, thank you for this opportunity. And thank you for 
your support of the United States Air Force, and thank you for 
your service. We look forward to discussing with this 
subcommittee the modernization of the current bomber fleet and 
our efforts to bring the Long-Range Strike Bomber into our Air 
Force inventory.
    As I begin, because the Long-Range Strike Bomber is a 
classified program and is in source selection, there will be 
matters that we will not be able to discuss today. Source 
selection specifics, detailed design or capability information, 
and anything deemed classified or that could potentially 
jeopardize the integrity of the ongoing source selection will 
not be discussed. Thank you in advance for your understanding.
    As the military deputy to the Air Force's service 
acquisition executive, I would like to highlight that the Long-
Range Strike Bomber is the foundation of the Air Force's future 
long-range strike capability.
    As we develop this advanced Long-Range Strike Bomber 
capability, we are and will continue to modernize the legacy 
bomber fleets--the B-1, the B-2, and B-52--to ensure they 
remain viable platforms, providing critical warfighting 
capabilities to the combatant commanders in support of the 
national military strategy far into the future. It is crucial 
that we continue the modernization of our current platforms 
until such time as we have sufficient numbers of Long-Range 
Strike Bomber aircraft in the inventory.
    The Air Force has invested heavily in a number of advanced 
capabilities over the past 30 years as we have pushed to keep a 
technology advantage across the spectrum of conflict. We are 
capitalizing on those investments to enable the development and 
fielding of the Long-Range Strike Bomber to be executed with 
reasonable risk and at an affordable cost. In short, the Long-
Range Strike Bomber program is leveraging our technological 
achievements and lessons learned to reduce risks and achieve 
affordability.
    And when we discuss affordability, we are not simply 
focused on developing and procuring the Long-Range Strike 
Bomber. Our focus throughout the program has been on the 
lifecycle cost of the platform. It is not enough to simply 
acquire them; we must also be able to afford to operate and 
sustain them.
    Additionally, we have built in an appropriate level of 
adaptability through design margin and open systems. The threat 
and the state of technology are not stationary. The steps we 
have taken to build in margin and open systems up front will 
allow us to address the evolving threat and embrace 
technological advancements.
    As we establish the initial capability, we have, are, and 
will continue to carefully balance the art of the possible with 
the art of the practical. We are and will continue to keep a 
watchful eye towards the future and adapt the platform to meet 
emerging and evolving threats. This balance has been at the 
forefront of the program from the very beginning and remains a 
cornerstone of the strategy today.
    The Long-Range Strike Bomber is crucial to our ability to 
execute the national military strategy in the future and ensure 
national command authorities have viable military options in 
the face of a technologically advanced adversary.
    I would now like to turn this over to Mr. Randy Walden to 
speak about the Long-Range Strike Bomber program, given his 
perspective as the program executive officer.
    Thank you, again, Mr. Chairman, for this opportunity to 
address you and the committee today, and I look forward to your 
questions.
    [The joint prepared statement of General Bunch and Mr. 
Walden can be found in the Appendix on page 36.]
    Mr. Forbes. General, thank you.
    Mr. Walden, it is good to see you here, and thank you. The 
floor is yours.

   STATEMENT OF RANDALL G. WALDEN, DIRECTOR, AIR FORCE RAPID 
CAPABILITIES OFFICE, OFFICE OF THE ADMINISTRATIVE ASSISTANT TO 
                 THE SECRETARY OF THE AIR FORCE

    Mr. Walden. Thank you, sir. It is good to be back, and good 
to see you.
    Mr. Chairman, Representative Courtney, and members of the 
subcommittee, I would like to thank you for the opportunity to 
address the subcommittee on the Long-Range Strike Bomber 
program, the future leg of the Air Force's long-range strike 
capability. As the program's executive officer, I would like to 
highlight some of the things the Air Force has done to ensure 
the success of the LRS-B program.
    From the very start, we have had Secretary of Defense 
guidance on the fundamental capabilities required for the 
Nation, and our Chief of Staff continues to serve as the 
requirements owner.
    Additionally, the program office and the user personnel 
have been working side by side in the same office since the 
very beginning of the program. This unique teaming has helped 
define the trade space and formed the right requirements for 
the program and capability. We drastically slashed the 
bureaucracy normally involved in getting a program to stable 
requirements--a key component in allowing us to snap the chalk 
line on the requirements early in the program planning.
    From an acquisition oversight standpoint, the program is 
important enough to this Nation where the program manager and 
his team continue to work directly with Air Force and DOD 
[Department of Defense] acquisition senior leaders at the 
highest level to set and execute the program strategy from day 
one.
    Overall, the LRS-B will provide a key capability to the 
joint fight. Often we start new programs and overreach when it 
comes to the number of new capabilities and, quote, ``bleeding-
edge technology'' that must come together in development. Early 
on, we recognized that LRS-B is a part of a larger family of 
systems, and we put only mature capabilities on LRS-B as 
opposed to every-good-idea technology. In short, it does not 
have to be everything for everyone.
    More succinctly, we have a family of systems in the joint 
arena that serves as the centerpiece for the joint warfighting 
capability. As such, we have crafted the LRS-B program strategy 
and capability to complement those capabilities while keeping 
affordability at the forefront.
    Finally, the Long-Range Strike Bomber program will be built 
as a capability for today with an eye on tomorrow, both from a 
threat and evolving technology perspective. The Open Mission 
Systems [OMS] approach that General Bunch brought up not only 
introduces evolving capability with greater ease and lower 
integration cost, it serves as the catalyst for greater 
competition throughout the life of the LRS-B program. This, in 
turn, presents a greater value for our Air Force and our 
Nation.
    It is an honor to serve alongside our great airmen and this 
great Nation. Thank you for the opportunity to be with you here 
today, and I look forward to addressing your questions. Thank 
you, sir.
    [The joint prepared statement of Mr. Walden and General 
Bunch can be found in the Appendix on page 36.]
    Mr. Forbes. Mr. Walden, thank you so much for being here.
    And, General Rand, two questions for you, one a little more 
difficult than the other one. But the first one, I thought it 
would be good for our record if you could take just a moment 
and tell us what Global Strike Command does, you know, under 
your authority.
    And then the second part of that is, according to the 
Quarterly Readiness Report--and we are going to have a slide up 
here in just a moment--bomber force aircraft availability is 
around 50 percent.
    Can you explain to the committee what the contributing 
factors to this low level of readiness are and what your plan 
is to regain higher levels of readiness and when we can expect 
that?
    [The slides referred to can be found in the Appendix 
beginning on page 51.]
    General Rand. Yes, sir. Thank you.
    The first thing, the Global Strike Command started in 2009, 
and it was an effort to, again, refocus our attention back on 
nuclear deterrence in the nuclear enterprise.
    And so, when Strategic Air Command was put to rest back in 
1990, we made a decision then to put our bombers in Air Combat 
Command; we put our missiles, our ICBM missiles, in Space 
Command; we put our air refueling tankers in Air Mobility 
Command.
    And, in 2009, we brought back Air Force Global Strike 
Command. And we are responsible for the bombers now--I told you 
the B-1 has become part of that--so all our bombers, 
conventional and nuclear, Global Strike, and our ICBM, 
intercontinental ballistic missiles, are now in Global Strike 
Command. And so we work--our top priority is to support Admiral 
Haney and Strategic Command at Offutt and his priorities.
    So I think that is a thumbnail sketch of what Global Strike 
Command does.
    The other thing, sir, that I will tell you, our refocus is 
to help to, I think, reinvigorate the nuclear command and 
control communications that are an integral part of providing 
nuclear command and control for the President and our senior 
leaders. And Global Strike will be the lead for the Air Force 
on those systems that support nuclear command and control, and 
so that will be an increasingly top priority for this command.
    The question you asked about aircraft availability, if I 
can make a distinction between aircraft availability and 
mission capable rate.
    In aircraft availability, it is all the planes in a weapons 
system, whether they are on the flight line or they are in some 
type of depot status. And that is important to note. It is all 
the planes, those that are--the maintainers and the flyers have 
access to and those that are out of our pocket for whatever 
reason.
    Mission capable rate is the planes that are on station 
that, actually, you have your availability to. And those rates 
are different. Our mission capable rates are decent and 
comparable with most of the other weapons systems that we have.
    But aircraft availability, as you said, languishes a little 
bit. And part of the major reason for that is our relatively 
small fleet size that we have of our three bombers. Sir, we 
have 159 total bombers. Break that down to 76 B-52s, we have 63 
B-1s, and we have 20 B-2s. At any time--and, oh, by the way, 
the newest of the three bombers is the B-2, and it is 25 years 
old.
    So, at any time, there is going to be a number of your 
aircraft that are in heavy maintenance depot status. And when 
you take those away, and then you are doing modifications, a 50 
percent aircraft available rate is what--you know, is the 
result of that small number. In the B-2 example, we have about 
11 or 12 airplanes at any time that we really can have our 
hands on.
    Some of the steps that we are taking, sir, to work this 
will be--long range will be the LRS-B, because that will help 
our numbers and we will have a larger number of airplanes. The 
other thing that we are working with is, some of these 
modernization and recapitalization efforts are directly looking 
to be more efficient and to address some of the challenges that 
we have with obsolete weapons systems platforms--the radar, the 
avionics. And by modernizing these, we are going to be able to 
have a much higher mean time between failures, if you will.
    And so those are the steps that we are taking. And I am 
working those right now, and I will be able to address some of 
those later on, if you would like, in the hearing, what are 
some of the modernization efforts that are currently underway 
in all three platforms. And I have a laundry list of things 
that I can share with you, if you would like.
    Mr. Forbes. General Bunch, the committee has been expecting 
an announcement on the new long-range strike aircraft for over 
6 months. The delay already resulted in a $460 million 
reduction from the program in the fiscal year 2016 President's 
budget.
    Can you explain the continued delay for the down-select 
announcement? And when can the committee expect reasonably that 
that decision is going to be made?
    General Bunch. Yes, sir. So this is a case, sir, where we 
need to go slow to go fast.
    We have a fair, deliberate, disciplined, and impartial 
process anytime that we do a competition. And we have been 
transparent in working with industry and trying to get this 
thoroughly done and documented so that we can make that 
decision.
    It is coming soon. That is about as good as I can give you. 
The way we are approaching this: it is not schedule-driven. It 
is fact- and decision-point-driven based on the information we 
have and the review that we have of the proposals.
    We are being very thorough. I am very proud of the team. I 
believe when this comes out it will be a very good news story 
for how our acquisition workforce has done this, despite the 
fact that it has taken us longer to get here.
    And then, as the announcement approaches, sir, we will 
inform committee leadership just prior to when we make the 
announcement so everyone is aware.
    Mr. Forbes. Do we have any idea whether that is going to be 
2 months, 10 years? What do we think?
    General Bunch. Sir, my hope is it is within the next couple 
of months. But we have details that we still have to work 
through to make sure we are doing it fair and make sure we are 
going through the process so that--we have to get the start 
right. If we get the start right, we set the program up for 
success the rest of the way. That is the part we are so focused 
on, is trying to get that right, right now, sir.
    Mr. Forbes. Okay.
    Mr. Walden, one more question I need to get on the record. 
The Air Force misstated the 10-year cost for research, 
procurement, and support of its long-range bomber in its annual 
report to Congress. Last year, the Air Force estimated the cost 
of the Long-Range Strike Bomber at $33.1 billion from fiscal 
year 2015 through fiscal year 2016. This year, it reported the 
fiscal year 2016 through fiscal year 2026 cost is $58.4 
billion. Air Force stated both were incorrect and posited that 
$41.7 billion is the real number.
    How confident are you that we have the cost in control for 
this platform now?
    Mr. Walden. Sir, very confident. The program office has 
estimated over the handful of years, and fiscal year 2015 was 
the start of that. And that program office estimate was at 
$41.4 billion, and fiscal year 2016 was at $41.7 billion. So 
the overall cost estimating of the program has been very 
stable, and I am very confident in the ability for us to do 
that estimating.
    On top of that, we have been working closely with the non-
advocate folks within the Air Force, as well as OSD [Office of 
Secretary of Defense], on doing independent cost estimates. And 
that is the foundation of that overall estimate.
    For the air portion, General Bunch has been working closely 
with the Air Staff to get to the process and the air story, and 
he is probably best suited to answer that question.
    General Bunch. So, Mr. Chairman, that is a regrettable 
error, that we submitted inaccurate information to Congress in 
a report. We take that very seriously. We know the importance 
of providing decision makers accurate information.
    And, as a result of that, Secretary James ordered a review 
of the process that we have within the Air Force and to do a 
thorough review of our processes and how those databases and 
how those information were collected.
    It was both a process and a human error. We have counseled 
the individuals who were involved in the creation of the 
report. We have put new business guidelines in place for how we 
use the databases and how the program office estimates are 
rolled into those databases for how business is done in the 
future and what we provide. And we have also established new 
processes to ensure that those numbers are reviewed by 
additional parties that have an interest in that to minimize 
the possibility that we will provide again inaccurate 
information.
    And, again, a regrettable error, one that we are not happy 
about. We take it very seriously, and we understand the 
critical importance of providing the proper information to 
Congress.
    Mr. Forbes. Thank you.
    And, as we talked about earlier, they have called some 
votes at this particular point in time. We are going to have to 
take a recess in just a minute and come back.
    But, Mr. Courtney, did you want to start some of your 
questions? Or would you rather wait and get them all in when we 
come back? Go ahead.
    We will let Mr. Courtney begin----
    Mr. Courtney. Great.
    Mr. Forbes [continuing]. And then we will take a recess and 
come back afterwards.
    Mr. Courtney. So thank you to the witnesses for being here 
and your outstanding testimony.
    General Rand, you just mentioned briefly in your opening 
remarks the 14,000 missions that have been flown in Southwest 
Asia.
    I was wondering, just for the sake of members who, you 
know, maybe aren't as familiar with the type of missions that 
the long-range bomber provides in terms of, you know, support 
for ground forces or whatever, what would be the harm or, you 
know, what impact would it be if we didn't have that capability 
and just had to rely on other fixed-wing types of planes that 
the Air Force flies?
    Because, obviously, there is a big investment we are 
looking at here, and I think it is important to establish, you 
know, what is the value here----
    General Rand. Yes, sir.
    Mr. Courtney [continuing]. That we are really talking 
about, very specifically.
    General Rand. Absolutely.
    The three bombers, as you mentioned, two of the three are 
nuclear- and conventional-capable. The B-1 is conventional 
only. But, in general, the purpose of long-range strike with a 
bomber is to be able to hold any target in the planet at risk, 
not in weeks or months, but in hours. And that is the beauty of 
what a long-range bomber can do.
    We don't have to be as concerned with some of the basing 
options that you would have to be. We can go a long way with a 
decent payload, and we can--and hold targets at risk. We also 
are recallable. We also are flexible in their surge capability.
    So long-range strike gives combatant commanders and our 
senior leaders in this Nation great flexibility to make sure 
that we are able to, when necessary, deter and, equally 
important, to assure many of our partner nations that we are 
there with them.
    Some recent examples, if I may, sir. The B-1s right now are 
fighting and have been fighting over the skies of Afghanistan, 
Iraq, and Syria for the last 12, 13 years, nonstop, 24/7, doing 
a remarkable job at a low threat, not much of an anti-access 
environment, and working very closely with our Army, Navy, 
Marines, and the airmen on the ground who are engaged in ground 
combat. And they have done that very successfully.
    They also have the capability to go long ranges. And a 
recent example of that was March of 2011 when they took off 
from Ellsworth in a driving snowstorm and flew nonstop to Libya 
and were able to do some very, very serious damage to the 
Libyan regime at the time; as well as exactly what the B-2s did 
in 2011 against Qadhafi.
    Most recently, in North Korea, when there was a flare-up 
back in August, we had our six B-52s that have been on a 
continuous bomber presence at Guam for the last decade nonstop. 
And we were in the middle of a swap-out; six were going in to 
replace the six that were there. And the PACOM [Pacific 
Command] commander immediately contacted the Joint Staff and 
Air Force Global Strike and said, ``Could we leave those six 
additional B-52s longer? We really like the presence.''
    In addition, the B-52s and B-2s two years ago flew a 
nonstop trip from their bases to the Republic of Korea, 
released training ordnances on one of the ranges, and flew back 
nonstop.
    I think that gives a perspective on how we can hold enemies 
at risk in, again, hours versus weeks. Did I answer your 
question?
    Mr. Courtney. Yes. Thank you.
    General Rand. Thank you, sir.
    Mr. Forbes. Members, we are going to take a recess till 
after the votes. We will come back, we will pick up with Mr. 
Courtney's questions, and then move on to the other questions 
we have.
    Gentlemen, again, we apologize, but thank you for your 
patience.
    And, with that, we stand in recess.
    [Recess.]
    Mr. Forbes. We thank you for your patience in allowing us 
to get through those votes.
    And when we left, Mr. Courtney was in the process of asking 
some of his questions, so we yield the floor once again to Mr. 
Courtney for any questions he might have.
    Mr. Courtney. Thank you, Mr. Chairman.
    And thank you, General, for your answers.
    And so one other question. Our subcommittee actually has 
been dealing a lot with the Air National Guard modernization in 
terms of trying to comply with the 2020 international, you 
know, flight restrictions that are going into effect. And I was 
just sort of wondering if you could talk about that, whether 
that is an issue. I mean, obviously, these are old planes which 
long predate some of these new rules going into effect.
    And is that something that you have already started to 
change, in terms of the avionics? Or is that something that, 
sort of, is still out there in the future?
    General Bunch. So, sir, I will take the first stab at that.
    I think one of the ones you are talking about there is the 
130 modernization, C-130 modernization, and the AMP [Avionics 
Modernization Program] program.
    And where we are at on the AMP program is that we have 
reinvigorated and revived it. We have built a roadmap ahead 
that is funded through the Air Force, through the FYDP [Future 
Years Defense Program]. It is focused on three main areas. The 
first area is focused on safety. The second--and obsolescence. 
The second area is focused on compliance with those mandates 
that you have talked about. And the last of those is focused on 
modernization.
    The program that we have laid out, the Guard, Reserve, and 
the Active are all on board. And we have a program that----
    Mr. Courtney. And I apologize. So I guess my question is, 
is this something that the bomber fleet has to deal with, as 
well?
    General Bunch. There are certain things that we have to 
look at in a roadmap for what we do with our IFF, information 
friend or foe, activities. Those are all laid in to what we are 
looking at for the plan, sir. We don't see a roadblock there 
for what we are trying to do.
    Mr. Courtney. Thank you.
    Mr. Forbes. The gentlelady from Missouri is recognized for 
5 minutes.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    And thank you, gentlemen.
    And it was so nice to meet you, General Rand, the other 
night at the Evening Tattoo, the celebration of the birthday of 
the Air Force. I highly recommend that to any member of HASC 
[House Armed Services Committee] and certainly was very proud 
to get to be a part of that and proud of the Air Force. And, of 
course, we are so proud of what is going on in Whiteman [Air 
Force Base] and appreciate your support of that.
    Just wanted to--you were talking about parts 
sustainability. And this has been, of course, a huge issue ever 
since I have been in office with the B-2, with only having 20. 
And I know that there have been many gains made in that, but we 
still have a ways to go there.
    And this is just, kind of, outside the box. I was reading 
in your testimony about the difficulty in trying to keep 
manufacturers and others interested in carrying out those 
contracts. I was just reading last week, being a part of this 
subcommittee, some information the chairman and others provided 
about the Navy and how they are integrating 3D parts building 
in their naval vessels to help address some of their things.
    I recently toured the National Security Campus in Kansas 
City. That is a pretty amazing place. And they were showing me 
the 3D parts development and manufacturing that they are doing 
there and how it is producing lighter, cheaper, faster parts.
    So I was just wondering, are you aware if this has been 
tried any in the B-2, as we look at manufacturers that are 
dropping out from being willing to--you know, maybe having our 
own production in certain parts?
    General Bunch. So, ma'am, I will--we are looking and the 
Air Force Sustainment Center does look at adaptive 
manufacturing or 3D manufacturing, and we have not found a lot 
of applicability to what we are trying to do----
    Mrs. Hartzler. Okay.
    General Bunch [continuing]. At this particular moment.
    You do raise a very good point that I think is important as 
we look at the Long-Range Strike Bomber. One of the issues we 
have had with the B-2 fleet is the small size of the fleet and 
trying to get people to bid when you are trying to build parts 
for those things.
    And I think we have come out and said we need 100 of the 
Long-Range Strike Bombers. That is the position that we bid on 
with. And as we have tried to do competitions to get people to 
bid on 20, it is often hard to do when manufacturing companies 
want to bid on hundreds or thousands.
    We believe keeping the right Long-Range Strike Bomber fleet 
size will make that more easily competed and more sustainable 
in the longer term, ma'am.
    Mrs. Hartzler. Absolutely. And I support that. I think most 
of us understand the mistake that was made in dropping down 
those numbers to only 20. So I am hopeful we will be able to 
carry out those larger numbers.
    Are there ever incentives paid to those companies, I mean, 
to get--you know, to stay in business, to keep those parts?
    General Bunch. We do those. Sometimes we will do life-of-
aircraft buys. So we will go look at certain components, and we 
will figure out how many we think we will go through through 
the life of the platform. And we may even buy larger quantities 
and put them back on the shelf so that we can do it.
    Another area that we are looking at in the B-2 to try to 
improve the parts flow is we are trying to bring some things in 
organic.
    And the other one that we talked about earlier and we have 
referenced is the Open Mission Systems.
    Mrs. Hartzler. Right.
    General Bunch. As we move to more Open Mission Systems--and 
that is a focus area that we have across our inventory. As we 
move to the more Open Mission Systems, that will allow us, even 
at the some of those subcomponent levels, to be able to compete 
additional--more than we can today.
    So we think there are some avenues we are doing where we 
try to do it organically within our workforce. We are also 
trying to open it up to more competition as we go to more Open 
Mission Systems. And sometimes, ma'am, we get to the point we 
have to do a life-of-the-platform buy. We estimate what the 
economic service life of the aircraft is, and we will buy the 
number of parts we think we will run through for the life of 
the program.
    That is the efforts that we have, ma'am, on----
    Mrs. Hartzler. I appreciate you, General Bunch, for sharing 
that.
    I want to switch gears real quickly, but, as you know, 
reportedly, China and Russia are developing new radars or 
defense systems that--other capabilities--to counter our 
stealthy aircraft. And, certainly, that is a concern.
    So how do you see the Air Force maintaining this ability to 
penetrate A2/AD [anti-access/area denial] environments to 
perform long-range strike operations as anti-stealth 
technologies mature over time?
    General Bunch. So, ma'am, the adaptability that we built 
in, with the Open Mission Systems and the innovative design 
that we have envisioned and the requirements we put in place 
for the Long-Range Strike Bomber, we have the adaptability we 
need with the Open Mission System.
    So if we run into it--and we realize the enemy is going to 
evolve, and they are going to try to get--they watch us, and 
they are adapting to address what we are trying to do.
    So the Open Mission System allows us, as that changes, we 
can add in new capabilities that are not in the platform today, 
or we can replace the capabilities or the subsystems that we 
have in the aircraft today with more advanced ones to try to--
to ensure--not try to--to ensure that we have the ability to 
address those future threats.
    Mrs. Hartzler. Great. Thank you.
    I yield back.
    Mr. Forbes. The gentlelady from Florida, Ms. Graham, is 
recognized for 5 minutes.
    Ms. Graham. Thank you, Mr. Chairman.
    And thank you very much for being here today.
    As we discuss and we have been discussing in quite a few 
hearings the challenges we face with our aging fleets, is there 
a way to possibly consider the weapons themselves and using 
technology to modernize the weapons systems that could 
potentially help with this challenge that we face?
    General Bunch. So, ma'am, we are looking at the longer term 
for what we are doing with our weapons inventories.
    One of the programs that is in--not even officially--it is 
one we have talked about but it has not fully been formed as a 
program--is a long-range standoff weapon [LRSO]. That is to 
replace our air-launched cruise missiles. The air-launched 
cruise missiles were weapons systems that were bought and 
procured in the 1980s with a 10-year life expectancy that we 
have done service-life extension programs for multiple years. 
Now what we are focused on is how do we replace that, because 
we are not going to be able to extend them much longer. So we 
are initiating a program to allow us to be able to hold targets 
at risk in that manner.
    That is one thing, but it is not fully capable of doing 
what we need the Long-Range Strike Bomber to do, which is to 
penetrate and hold all those targets at risk and give our 
national command authorities the flexibility to execute 
military options if needed.
    Ms. Graham. General Rand, did you have anything to add?
    General Rand. Yes, ma'am. The LRSO is one example, but 
another would be on the B-52. It is carrying all the newest and 
latest and greatest weapons that we have now, and, in fact, it 
is currently undergoing an upgrade and modification to an 
internal weapons bay. It is called the 1760 Integrated Weapons 
Bay Upgrade. That is going to allow to carry internally our 
most modern weapons that we have--our JASSM [Joint Air-to-
Surface Standoff Missile], our JDAM [Joint Direct Attack 
Munition]. That will help carry a larger payload and also 
reduce the drag from having it externally hanging on the 
airplane.
    So those are some of the very things that we are 
modernizing. Even though it is a 60-year weapons frame, we are 
putting the best weapons that we have on it, and it is capable 
of carrying it.
    Ms. Graham. Well, thank you.
    And I just want to thank all of you. And I am so proud to 
represent Tyndall Air Force Base and a small little piece of 
Eglin, as well, in north Florida. And thank you very much for 
what you all do to serve our country.
    And, Mr. Chairman, I yield back the balance of my time.
    General Rand. You are welcome. Thank you.
    Mr. Forbes. The gentlelady yields back the balance of her 
time.
    The gentlelady from Hawaii is recognized for 5 minutes.
    Ms. Gabbard. Thank you very much, Mr. Chairman.
    I wonder if you can speak to how the LRS-B acquisition 
program, as you see it, differs from other programs that we 
have seen in the past that have experienced really massive cost 
overruns. And what have you learned from the past that will 
prevent that from occurring with this?
    Mr. Walden. So two big things up front: one, stable 
requirements; and then the mature technology out there.
    The most important thing now is to be able to integrate 
that technology that would be the highest risk to the overall 
program, and I think we have that pretty much under control.
    The overall program's engineering and manufacturing 
development program would buy down that risk. For the past 4 
years, we have been working closely with the offerors, 
contractors, and industry on buying down that risk and 
investing heavily and making sure that we are not putting any 
immature technology in there and adding more risk than we need 
or cost to the overall program.
    General Bunch. Ma'am, can I add to that just one item? I 
think there are a couple of other things that, through ``Better 
Buying Power'' and ``Bending the Cost Curve,'' those are 
initiatives within the OSD and within the Air Force that plays 
into this. And one of those is our open and transparent 
relationship with our industry partners.
    We have had a very open discussion with them about what the 
requirements are, how we were going to grade, what was going to 
be looked at in the source selection. And I believe that 
openness and sharing of information has allowed them to fully 
understand what we are trying to do, what risks we are willing 
to take, and has allowed them to give us ideas as to where we 
are taking risks and be a better informed buyer.
    So I think that one is another one, ma'am, that sets us up 
a little differently on this one.
    The other one that I would say is, as the technologies 
mature, we are structuring the contract so that we have 
incentives in place to keep the costs from going too high, to 
the point that we will limit the amount of profit if it goes 
too high.
    And when we go into the production, one of the things we 
are doing different on this program that we have not done on 
other programs, we are going to get a firm, fixed price for 
production for the first five sets to get us up to one-fifth of 
the inventory. And we have not done that on any development 
program we have done in quite some time, where it is a brand 
new aircraft that is coming out. That is a strategy that we 
have done to ensure we lock in the prices and we make sure we 
have a firm way to control the costs as we go forward.
    I think those are a couple of other things we have done a 
little differently on this program, ma'am.
    Ms. Gabbard. Yeah.
    You spoke of maturing technology, and I think one of the 
issues that is most often brought up when we look at not only 
our capabilities but the capabilities of those in the 
environments around us is the increasing A2/AD environments.
    Can you speak to how you see these long-range strike 
operations developing and how they could be carried out in the 
future in order to penetrate those environments?
    General Rand. Yes, ma'am.
    The family of systems is what we refer to with the Long-
Range Strike Bomber. And I would just--if you would look at 
what we currently have today in terms of electronic warfare, 
electronic attack, suppression of anti-air defenses, our way to 
combat, you know, cyber and communication concerns, I would 
think that, when we are fielding the LRS-B, those grandsons of 
what current systems we have today will be an integral part of 
the LRS-B.
    And it will be a combined effort, so the LRS-B won't be 
going it alone. And that is the beauty of being able to parlay 
the technologies that we have and that we are already advancing 
in these families of systems that we have. And that is a very, 
very important part.
    And then the weapons that the LRS-B will also carry, it is 
very incumbent that it has a standoff capability. And that is 
why I think when Mr. Walden talked about the long-range 
standoff, LRSO, why that is such an important part--or General 
Bunch did--why it is so important that we modernize and 
recapitalize on that capability.
    Mr. Walden. Just to add to that, in the early days, I 
mentioned about the technology development. We did look at what 
the threat was doing, with an eye on the technology we would 
want to put on the platform not only in the near future but 
into the far future. General Bunch kind of touched on the 
ability first to try to modernize and keep up with the changing 
threat. That is what we are talking about.
    Ms. Gabbard. Yeah.
    Mr. Walden. So hopefully that helped.
    Ms. Gabbard. Great. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Forbes. That concludes all of our subcommittee members 
who had questions. And based on the motion we had at the 
beginning of the hearing, we now recognize Mr. Fleming for 5 
minutes for any questions he might have.
    Dr. Fleming. Thank you, Mr. Chairman, for allowing me to 
sit in on subcommittee, even though you did make me sit at the 
kids' table. That is okay.
    Mr. Forbes. We were putting you up front.
    Dr. Fleming. Oh, I see. I get that. I get that. Thanks.
    Well, let's see, General Rand, great to see you. Welcome, 
again, to Barksdale Air Force Base, Bossier City-Shreveport, 
that is in my district. That is where we have the headquarters 
of Air Force Global Strike Command. And we are excited about 
having you, and you are going to be a great addition to our 
community.
    I did have some questions for you regarding the Long-Range 
Strike Bomber. Regarding that mission, what are the factors 
that drive the total bomber requirement? And how many bombers 
will the Air Force need to meet combatant commander needs once 
the LRS-B procurement is complete?
    General Rand. Yes, sir. That is a fair question, and it is 
one that we haven't firmed up yet.
    We currently have 159 bombers, of which 96 are combat-
coded. I certainly can't imagine a situation where we could 
ever be less than that, in my humble opinion.
    As we get the LRS-B in production and we procure them and 
start fielding them, that we will have to have a very healthy 
discussion of the requirements. What is the end state for then, 
they will be, the four bombers that we will have?
    It would be premature to have that discussion right now, 
but I think that going in with the 100 as a requirement and 
knowing that several of the other bombers will be augmenting 
our LRS-B for quite a long time, our LRS-B for a significant 
time, we are going to be in that 159 range.
    Dr. Fleming. All right. Great. Thank you.
    General Rand. Yes, sir.
    Dr. Fleming. Assuming a full LRS-B procurement of that 80 
to 100 that you are referring to, can you discuss the value of 
B-52 modernization--specifically, re-engineering, new radar, 
beyond-line-of-sight communications, regional data link 
systems, et cetera?
    General Rand. Absolutely, I can, sir. Thank you for that 
opportunity.
    The B-52 still does things that are unique to that weapon 
system. It is the only system we have in our Air Force that do 
some of the things it does. And, as I mentioned earlier, it has 
the nuclear and conventional capability--very important to us. 
It has a long-range standoff capability--very important to us. 
It has an enormous payload, great range. The airplane is an 
amazing workhorse despite being 60 years old. So it is 
incumbent to me that we modernize and continue to modernize the 
B-52 because we are going to be relying on its service for many 
years to come.
    And some of the things we are doing as we speak are the 
Combat Network Communications Technology. That is going to 
really help the situational awareness of the aircrews, the 
ability to do a lot better management of how things are coming 
into the cockpit, moving map, machine-to-machine technology, if 
you will.
    I mentioned already, earlier, about our 1760 Integrated 
Weapons Bay Upgrade. That is very important to us because we 
will be able to carry a larger payload, and we will be able to 
go farther because we will reduce the drag by not having the 
external weapons on board.
    Dr. Fleming. Right.
    General Rand. I am very interested, and I am going to work 
with my counterparts here and certainly the Air Staff to have 
good discussions in procuring Link 16 for the B-52. It is 
currently the only combat airplane that we don't have that is 
on the network of Link 16. And that is really important for 
other--Navy, our joint partners, and our Air Force to be able 
to see where the B-52s are and for them to see where other 
assets are.
    I mentioned earlier to you, sir, the importance that I 
think--we have a 1980s radar that still has 1960s technology 
that we are using. And as we address the A2/AD environment, 
radar is still very important to be able to, that last place 
where we are at, to give that last guidance to the weapons. And 
so I would like to do what we can to procure a new radar.
    And, finally, I would like to have some good discussions 
with the Air Staff on the possibility of re-engining the B-52 
to reduce the fuel requirements efficiency, increase our 
range--we can go higher, we can go farther--reduce the tanker 
requirements. There are many benefits of a possible re-
engining. But that would be premature. It also has a 
considerable----
    Dr. Fleming. Right.
    General Rand [continuing]. Cost that goes with it.
    Dr. Fleming. So it is going to be a good while before we 
get the Long-Range Strike Bomber off the assembly line. There 
are a lot of opportunities to enhance and improve what we 
already have in our fleet and our inventory, to kind of bridge 
that gap.
    General Rand. Sir, you are spot-on; 2025 was what we are 
hopeful for IOC, the initial operation capability, of LRS-B. It 
will take several years to procure whatever buy we end up with. 
We are easily talking, the B-52, into the 2040s is, I think, a 
more than viable platform for us.
    So any moneys that we invest today, we will get our return 
on this. This won't be something that we won't be using in 5 
years from now.
    Dr. Fleming. Right. Thank you.
    And I----
    General Bunch. Can I add?
    Dr. Fleming. If the chairman will allow----
    General Bunch. We need to do that. We talked about the B-
52. We also need to do that on the B-1 and the B-2. We have to 
keep all of those relevant so that we have our options open as 
we get beyond and we get the Long-Range Strike Bomber on board 
so that we can decide how we need to shape our force to face 
that challenge that may be out there in the future.
    General Rand. And that is a great point. Right now, in all 
three bombers, there are fiscal year 2016 dollars that we are 
aggressively using to make modifications and modernization on 
every one of our platforms. And I would be happy to share the 
B-1 and the B-2 initiatives we have, as well.
    Dr. Fleming. Great. Great. Thank you.
    And I yield.
    Mr. Forbes. Thank you, Mr. Fleming.
    And as we said at the outset, also, we want to give you any 
opportunity you need to take a few minutes. If there is 
something that we didn't include in the transcript that you 
think is important to get in there or something that was 
mischaracterized or you might want to change now, this is your 
time to do it.
    And we will start with you, General Rand.
    General Rand. Sir, I will just foot-stomp what I said 
earlier. I think it is incumbent upon us to realize that the 
long-range strike capability is something that our Nation 
absolutely has to have. To do that, we have to be able to 
modernize our current bomber fleet and we have to acquire a new 
LRS-B, and I think we are on the path to doing that.
    I think it is critical that we are able to hold our enemies 
at bay and keep them at risk anywhere at any time. And I 
appreciate the support that you are providing us to be able to, 
one, advocate and, two, endorse, and be our cheerleaders as we 
go down this road. Because while some of these bombers are 
mature, they are very capable, and our Nation needs them.
    So thank you.
    Mr. Forbes. General, thank you.
    General Bunch.
    General Bunch. Sir, I just want to talk one more moment 
about the section 1047 error that we, the Air Force, made as we 
submitted our report. Again, that is a regrettable error, and 
we understand fully the importance of providing accurate 
information to Congress.
    I want to stress to everybody that the program office 
estimates had absolutely and--nothing with the Long-Range 
Strike Bomber had anything to do with that error. The error was 
a process and a human error. Secretary James took it very 
seriously, and we have counseled the individuals, and we have 
changed our processes to minimize it.
    I just want to make sure we characterize it had nothing to 
do with what the LRS-B program office had done. They provided 
all the information, and it was internal to the Air Staff that 
the error occurred.
    I want to follow along with General Rand and stress that 
the Long-Range Strike Bomber is crucial to the Air Force's 
ability to execute the national military strategy in the 
future, and particularly in an anti-access/area denial role. We 
need this capability in the field so that we can continue to 
give the national command authorities options to prosecute 
targets and continue to serve as a world power and execute our 
mission.
    Thank you, sir.
    Mr. Forbes. General, thank you.
    And, Mr. Walden, we will give you cleanup.
    Mr. Walden. Yes, sir. Thanks.
    One, I think the team, the LRS-B team, has worked very hard 
to get to where we are today. We believe we are ready to 
execute the program. The source selection is almost over. We 
are ready to make that down-select and move on with building 
the next-generation bomber, a Long-Range Strike Bomber, for the 
Nation.
    So we look forward to working with you in the future. Thank 
you, sir.
    Mr. Forbes. Thank you.
    And, once again, as we said at the outset, we just 
appreciate all three of you being here, but also all of your 
staffs. We know how hard your staffs work to get you the 
information and to help you do what you do. And to all the men 
and women who serve under you, we thank you for their efforts.
    And, with that, Ms. Graham, if you have nothing else, then 
we are adjourned.
    [Whereupon, at 4:56 p.m., the subcommittee was adjourned.]



      
=======================================================================



 
                            A P P E N D I X

                           September 29, 2015

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 29, 2015

=======================================================================

      

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           September 29, 2015

=======================================================================

      
--------------------  

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 29, 2015

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. FORBES

    Mr. Forbes. Will B-1, B-2 and B-52 bombers be fully airspace 
compliant by the 202 mandate? If not, how many and of which type will 
not be compliant? Furthermore, what steps will be taken to mitigate the 
impact of noncompliance?
    General Rand. Due to fiscal constraints within the Nuclear 
Deterrence Operations portfolio, current projections indicate that no 
AFGSC bomber will meet the FAA's mandate of 2020 for ADS-B compliance. 
Partial solutions have been funded for each airframe, however all still 
require additional funding for programs and integration for complete 
ADS-B compliance.
    We are currently working within the Air Force corporate process to 
fund these programs and will continue work to develop a solution and 
aircraft installation.
    While we do not yet know what the FAA's decision will be with 
regard to approval to fly in certain airspace, it is likely we will 
have to submit waivers for flight approval which would impact aircrew 
training and readiness. At a minimum, we expect increased routing 
around high density airspace that would drive increases to average 
sortie durations on training missions. We are unable to speculate the 
impact to contingency missions.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. The LRS-B is expected to be far more than just a 
bomber. It will link sensors and shooters across the battlespace while 
being a vital node in the combat cloud. How are we changing our concept 
of operations to ensure we take advantage of these capabilities? How 
are we implementing lessons learned from current conflicts regarding 
battlespace awareness and sensor fusion?
    General Rand. There are over three decades of lessons learned and 
operational experience that will inform the initial baseline of 
operations for LRS-B when it fields. Additionally, its operational and 
tactical employment will evolve as the system matures. LRS-B is one 
part of a ``family of systems'' portfolio including Intelligence, 
Surveillance, and Reconnaissance (ISR); electronic warfare; prompt 
strike; communications; and weapons effects. LRS-B's long range, 
significant payload, and survivability will contribute to the 
capability to hold future targets at risk; this will enable the 
nation's ability to maintain dominance over evolving threats by 
adversaries employing advanced anti-access and area denial (A2AD) 
strategies.
    Ms. Bordallo. Does the Air Force have plans to re-engine the B-52 
to reduce the maintenance requirements and increase fuel efficiency? 
Have you performed a cost-benefit analysis of a re-engining compared to 
any alternatives?
    General Rand and General Bunch. The Air Force does not currently 
have a requirement to re-engine the B-52; however, we are exploring the 
potential to reduce B-52 engine maintenance and increase efficiency by 
conducting a re-engine cost-benefit analysis (CBA). Of note, the 
existing TF-33 engines are supportable through the projected service 
life of the aircraft. In support of the CBA, the AF released a Request 
For Information in Dec 14 to determine the benefits of existing engines 
in the commercial market place--there were five respondents. The CBA is 
still under development and, after review, is expected to be complete 
by 2Q FY16. Any plans to re-engine the B-52 will be informed by the 
outcome of the cost-benefit analysis, which will then enable us to make 
decisions on the best way ahead.
    Ms. Bordallo. How are we developing the long-term strategy for 
procuring and sustaining the LRS-B while including planned upgrades 
over the life of the system?
    General Bunch. In order to make sure that this was done right from 
the beginning, the program office team worked very successfully in 
lock-step with Air Combat Command (ACC) and Air Force Global Strike 
Command (AFGSC) establishing the operational needs and requirements. 
The APUC of $550 million, in base year 2010 dollars, is a key 
requirement for the program and drove the requirements and technology 
trades of the design. In May of 2013 General Welsh approved the program 
requirements. Over the past three years the program office has worked 
closely with industry to ensure designs and requirements remained 
stable. We have completed Preliminary Design Reviews and Manufacturing 
Readiness Reviews which demonstrate the program is at the highest level 
of technology maturity seen on a new aircraft development at this 
stage. The platform design is at subsystem level and there is a very 
high fidelity for the structure, electronics, hydraulics, engines, air 
data systems, and the low-observable technology.
    Maintainability has been a key focus area. Numerous placement 
reviews have been accomplished to ensure components are accessible and 
access allows streamlined diagnostic testing. Additionally, the LRS-B 
is being designed to have an open architecture. The Air Force Open 
Mission Systems (OMS) standards establish an open architecture, provide 
streamlined processes for systems integration and encourage 
competition. The program has built-in an appropriate level of 
adaptability through design margin and open systems, allowing for 
affordable upgrades as technology advances and threats evolve. OMS 
sustains competition throughout the aircraft design and life cycle, and 
enables long-term affordability while enhancing supportability.

                                  <all>
</pre></body></html>
